U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Wilmar Rene Duran-Gomez v. United States, No. 20-7935

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 3, 2021.
The government’s response is now due, after one extension, on July 6, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
August 6, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7935
DURAN-GOMEZ, WILMAR RENE
USA

CULLEN OAKES MACBETH
ASSISTANT FEDERAL PUBLIC DEFENDER
6411 IVY LANE
SUITE 710
GREENBELT, MD 20770-1405
301-344-0600
CULLEN_MACBETH@FD.ORG

